   May 7, 2002




Information Technology

Defense Hotline Allegations on the
Procurement of a Facilities
Maintenance Management System
(D-2002-086)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
           Additional Copies

           To obtain additional copies of this audit report, visit the Web Site of the Inspector
           General of the Department of Defense, www.dodig.osd.mil/audit/reports or
           contact the Secondary Reports Distribution Unit of the Audit Followup and
           Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
           604-8932.

           Suggestions for Future Audits

           To suggest ideas for or to request future audits, contact the Audit Followup and
           Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
           fax (703) 604-8932. Ideas and requests can also be mailed to:

                             OAIG-AUD (ATTN: AFTS Audit Suggestions)
                             Inspector General of the Department of Defense
                                   400 Army Navy Drive (Room 801)
                                       Arlington, VA 22202-4704

           Defense Hotline

           To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
           424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
           writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
           The identity of each writer and caller is fully protected.




Acronyms
ATLASS                Asset Tracking Logistics and Supply System
CIO                   Chief Information Officer
JLSC                  Joint Logistics Service Center
         Office of the Inspector General of the Department of Defense
Report No. D-2002-086                                                        May 7, 2002
    (Project No. D2002FG-0031)

            Defense Hotline Allegations on the Procurement of a
                Facilities Maintenance Management System

                                 Executive Summary

Introduction. This audit was performed in response to allegations made to the Defense
Hotline in May 2001 concerning Marine Corps acquisition of facilities maintenance
software called MAXIMO® (a product of MRO Software, Incorporated). MRO
Software, Incorporated, has provided MAXIMO to more than 8,000 organizations
including Government agencies.
The allegations involved the procurement of MAXIMO at 16 Marine Corps
installations. Specifically, the allegations addressed the Marine Corps failure to rely on
a system approved for managing facilities maintenance within the Marine Corps,
potential administrative violations within the procurement process for MAXIMO, and
improper funding of MAXIMO with operation and maintenance funds.

Objective. Our objective was to determine whether the Marine Corps properly used
funds to purchase MAXIMO.

Results. The complainant made eight allegations concerning the acquisition of
MAXIMO. None of the eight allegations was substantiated.

One allegation was that the Marine Corps should have only one system for managing
maintenance, to include facilities maintenance. The complainant stated that the Asset
Tracking Logistics and Supply System (ATLASS) should be the maintenance
management system for the Marine Corps, to include facilities maintenance. However,
the Marine Corps ATLASS project officer stated that ATLASS was not intended for
facilities maintenance. Further, the operational concept in the ATLASS Product
Improvement Plan requires ATLASS to share data with facilities maintenance software
because ATLASS was not planned for managing facilities maintenance. The Marine
Corps uses two rather than one system to manage its maintenance programs−MAXIMO
for managing facilities maintenance and ATLASS for managing all other maintenance.

Five allegations addressed the procurement process used by the Marine Corps to
acquire MAXIMO. The complainant alleged that the Marine Corps should have
followed DoD acquisition procedures, designated a program manager, and appointed a
senior decision maker to oversee the program. DoD managers are required to follow
DoD acquisition procedures, to include appointing a program manager and a senior
decision maker, if the total program cost of an automated information system exceeds
$120 million. We determined that the Marine Corps had initially purchased MAXIMO
software in 1997 costing only $1.27 million; therefore, the Marine Corps was not
required to follow DoD acquisition procedures for major information technology
programs.

Two allegations addressed the funding process used by the Marine Corps in purchasing
MAXIMO. The complainant alleged that the Marine Corps wrongly used operation
and maintenance funds to procure MAXIMO. The DoD Financial Management
Regulation allows the use of operation and maintenance funds for buying software, such
as the MAXIMO software, if the cost for each unit of software is less than $100,000.
The Marine Corps initially purchased 510 licenses of MAXIMO costing $1.27 million
or only $2,490 per unit; therefore, the use of operation and maintenance funds was
appropriate.

Appendix B provides a detailed discussion of each allegation.

Management Comments. We provided a draft of this report on April 17, 2002. No
written response to this report was required and none was received. Therefore, we are
publishing this report in final form.




                                           ii
Table of Contents

Executive Summary                i


Introduction
     Background                  1
     Objective                   1

Finding
     Procurement of MAXIMO       2

Appendixes
     A. Audit Process
         Scope and Methodology   4
         Prior Coverage          4
     B. Allegations              5
     C. Report Distribution      8
Background
    This audit was performed in response to allegations made to the Defense Hotline
    in May 2001 concerning the Marine Corps acquisition of maintenance software
    called MAXIMO.® MAXIMO is a product of MRO Software, Incorporated,
    and is deployed at more than 8,000 organizations including Government
    agencies.

    Allegations. The complainant alleged the Marine Corps was procuring a system
    in addition to the Asset Tracking Logistics and Supply System (ATLASS) for
    managing facilities maintenance. Also, the complainant alleged a lack of
    adherence to the procurement process and failure to use appropriate funding
    sources for the procurement of MAXIMO.

    Procurement of MAXIMO. The MAXIMO software is a commercial
    off-the-shelf software package originally procured by the Joint Logistics Service
    Center (JLSC) to manage maintenance of facilities. In April 1993, the JLSC
    chartered a customer advisory team to define the requirements for managing
    industrial plant facilities and capital equipment resources as part of the Depot
    Maintenance Standard System. This system was composed of eight modules,
    one of which was facilities and equipment maintenance. The MAXIMO
    software was chosen to provide DoD depots an automated tracking and control
    system for the management of facility and equipment maintenance.

    Marine Corps Use of MAXIMO. In 1997, the Headquarters, Marine Corps,
    delivered MAXIMO to all installation facilities managers as the preferred
    system for managing facilities maintenance. In July 2000, a Marine Corps-wide
    MAXIMO Users Conference was held at the Marine Corps Logistics Base in
    Albany, Georgia. As a result of this conference and subsequent meetings,
    MAXIMO was selected as the standard software to be used by facilities
    maintenance organizations across the Marine Corps.

Objective
    The primary objective for this audit was to determine whether the Marine Corps
    properly used funds to purchase MAXIMO. Appendix A discusses the scope,
    methodology, and prior audit coverage.




                                        1
            Procurement of MAXIMO
    A complainant alleged that the procurement of MAXIMO was improper.
    Specifically, the complainant alleged that:

        •   the Marine Corps should have only one system for maintenance
            management;

        •   the Marine Corps might have violated administrative controls during the
            procurement of MAXIMO; and

        •   MAXIMO was improperly purchased using operation and maintenance
            funds.

    These allegations were not substantiated. Appendix B provides a more detailed
    discussion of each allegation.

Maintenance Management Systems
    The complainant alleged that the Marine Corps should have only one system for
    managing maintenance, to include facilities maintenance. The complainant
    stated that ATLASS should be the maintenance management system for the
    Marine Corps. However, the Marine Corps ATLASS project officer stated that
    ATLASS was not intended for facilities maintenance. In 1997 the Marine Corps
    ATLASS Program Management Office began work on a product improvement
    plan. That plan required ATLASS to interface with facilities maintenance
    software, such as MAXIMO. Therefore, MAXIMO, the software chosen to
    manage Marine Corps facilities maintenance, does not appear to duplicate the
    capabilities of ATLASS.

MAXIMO Procurement Process
    Administrative Controls. The complainant alleged that the Marine Corps
    might have violated administrative controls during its procurement of
    MAXIMO. DoD Regulation 5000.2-R, “Mandatory Procedures for Major
    Defense Acquisition Programs (MDAPs) and Major Automated Information
    System (MAIS) Acquisition Programs,” March 15, 1996 [now superseded],
    provided administrative controls for acquiring automated information systems.

    DoD Regulation 5000.2-R required automated information systems to follow
    specific administrative controls if the cost of the program exceeded
    $120 million. Because the initial cost of MAXIMO, $1.27 million, was less
    than the $120 million limit and the purchase was only for software, the Marine
    Corps was not required to follow the administrative controls required by DoD
    Regulation 5000.2-R.

    Modifications Made to MAXIMO. Although the Marine Corps was not
    required to follow the administrative controls required by DoD Regulation


                                       2
    5000.2-R, the Marine Corps had acted to control configuration modifications to
    MAXIMO. According to the Camp Lejeune Public Works Division, Camp
    Lejeune had used a locally developed system prior to 1998. In 1998, Camp
    Lejeune converted to MAXIMO, however, no overarching controls were in
    place and personnel modified the software as desired. As a result, MAXIMO
    began to mirror the locally developed system it was replacing. The Engineering
    Director for public works at Camp Lejeune cited concerns about the lack of
    overarching controls over the software modifications as the reason the
    Headquarters, Marine Corps, took over management of MAXIMO in 2000.

    After taking this responsibility, Headquarters, Marine Corps, stopped the
    16 Marine Corps installations using MAXIMO from making modifications.
    Next, a program management plan was developed with the goals of
    standardizing the configuration and functionality of the MAXIMO software and
    establishing MAXIMO as the standard software for managing facilities
    maintenance. Headquarters, Marine Corps, requested that the Marine Corps
    Systems Command manage the facilities maintenance information systems. A
    Facilities Management Information Policy Board was also created. This board
    was authorized to establish a MAXIMO Configuration Control Board that would
    assist the program management office in ensuring the uniform implementation of
    MAXIMO. Consequently, any future changes or modifications (such as had
    occurred after the initial purchase of MAXIMO) would now require approval
    from the Configuration Control Board.

Program Funding
    The complainant alleged that MAXIMO was improperly purchased using
    operation and maintenance funds. The DoD Financial Management Regulation,
    DoD 7000.14-R, volume 2A, “Budget Presentation and Formulation,” July
    1996, [now superseded] stated that expenses are costs incurred to operate and
    maintain an organization. The DoD Financial Management Regulation allows
    the use of operation and maintenance funds to pay for expenses to include
    buying software, such as MAXIMO, if the cost for each unit of software is less
    than $100,000. The Marine Corps initially purchased 510 licenses for
    MAXIMO, costing $1.27 million or only $2,490 per unit; therefore, the use of
    operation and maintenance funds was appropriate.

Conclusion
    The Marine Corps followed DoD policy for acquiring and funding MAXIMO.
    Consequently, there are no recommendations in this report.




                                       3
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We performed audit work to examine allegations made by a
    complainant to the Defense Hotline in May 2001. We interviewed the
    complainant, the MAXIMO program manager, the MAXIMO project officer,
    and the ATLASS project officer. We also interviewed the Marine Corps
    Installation and Logistics Department personnel, Marine Corps chief
    information office personnel, Camp Lejeune Facilities Maintenance personnel,
    and personnel at the Marine Corps Logistics Base in Albany, Georgia.

    We reviewed documents pertaining to the allegations on the Marine Corps
    development of a single system for managing facilities maintenance, potential
    administrative violations with the procurement process for MAXIMO, and
    improper use of operation and maintenance funds to procure MAXIMO.

    During June 1997, the Marine Corps purchased 510 MAXIMO licenses costing
    a total of $1.27 million. In FY 2000, MAXIMO was used at 16 Marine Corps
    locations.

    Limitations to Scope. We did not review the management control program.
    The audit scope was limited to the Hotline allegations.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Information Technology Management high-risk area.

    Use of Computer-Processed Data. We did not use computer-processed data in
    the performance of this audit.

    Audit Type, Dates, and Standards. We performed this program audit from
    October 2001 through April 2002 in accordance with generally accepted
    government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.



Prior Coverage
    The Inspector General of the Department of Defense has issued numerous
    reports discussing the acquisition of software and information technology.
    These reports can be accessed on the Internet at
    http://www.dodig.osd.mil/audit/reports.



                                        4
Appendix B. Allegations
   The audit was conducted to investigate allegations made concerning the
   acquisition of maintenance software within the Marine Corps. Following is a
   synopsis of the eight allegations made by the complainant.

   Allegation 1. The Marine Corps is using MAXIMO instead of ATLASS for
   facilities maintenance management. ATLASS was to bring all Marine Corps
   base functions, to include facilities maintenance, into a common environment.

   Audit Results. The allegation was not substantiated. The ATLASS project
   officer stated that ATLASS is not a facilities maintenance system. We verified
   that the ATLASS product improvement plan states that ATLASS must interface
   with facilities maintenance systems. As evidenced by this plan, ATLASS does
   not provide the capability to manage maintenance of facilities. Therefore, the
   Marine Corps requires two systems—MAXIMO for managing facilities
   maintenance and ATLASS for managing all other maintenance.

   Allegation 2. MAXIMO cost more than $100,000 and, therefore, the Marine
   Corps Chief Information Officer (CIO) should have developed a mission needs
   statement and compared functionality requirements against other current and
   planned programs, like ATLASS.

   Audit Results. The allegation was not substantiated. The DoD Financial
   Management Regulation, DoD 7000.14-R, Volume 2A, “Budget Presentation
   and Formulation,” July 1996, [now superseded] stated that expenses are costs
   incurred to operate and maintain an organization. The DoD Financial
   Management Regulation allows the use of operation and maintenance funds to
   pay for expenses to include buying software, such as MAXIMO, if the cost for
   each unit of software is less than $100,000. The Marine Corps initially
   purchased 510 licenses for MAXIMO costing $1.27 million or only $2,490 per
   unit, therefore, the use of operation and maintenance funds was appropriate in
   1997.

   Allegation 3. The Marine Corps CIO should have certified the MAXIMO
   program.

   Audit Results. The allegation was not substantiated. According to
   Commandant of the Marine Corps messages, dated January 4, 2001, and
   January 23, 2001, the Marine Corps CIO must certify that the purchase of
   software within the Marine Corps does not impact or duplicate the Navy Marine
   Corps Intranet. The Marine Corps Logistics Base in Albany, Georgia,
   requested and received a waiver certifying that MAXIMO did not violate any
   Marine Corps order or policy and did not conflict with the Navy Marine Corps
   Intranet.

   Allegation 4. The Marine Corps should have appointed a program manager to
   capture and manage life-cycle costs and requirements.



                                      5
Audit Results. The allegation was not substantiated. DoD Regulation
5000.2-R, “Mandatory Procedures for Major Defense Acquisition Programs
(MDAPs) and Major Automated Information System (MAIS) Acquisition
Programs,” March 15, 1996 [now superseded], provided guidance for acquiring
software such as MAXIMO. DoD Regulation 5000.2-R required automated
systems to follow specific administrative controls for programs costing more
than $120 million, to include appointing a program manager. Because the initial
cost of the MAXIMO program was only $1.27 million, the Marine Corps was
not required to follow the administrative controls required by DoD Regulation
5000.2-R. As a result, the Marine Corps is in compliance with DoD policy and
was not required to appoint a program manager.

Allegation 5. The Marine Corps should have requested funds from Congress.

Audit Results. The allegation was not substantiated. The DoD Financial
Management Regulation, DoD 7000.14-R, Volume 2A, “Budget Presentation
and Formulation,” July 1996, stated that items with a unit cost less than
$100,000 were classified as expenses and items with unit costs greater than
$100,000 were classified as investments. Operation and maintenance funds
should be budgeted to pay for expenses and investments.

The Marine Corps initially purchased 510 licenses of MAXIMO costing
$1.27 million or only $2,490 per unit, which is less than the $100,000 limit.
Therefore, the use of operation and maintenance funds was appropriate in 1997
and the Marine Corps was not required to request procurement funds from
Congress.

Allegation 6. The Marine Corps CIO should have placed MAXIMO under the
oversight of a Milestone Decision Authority (a senior decision maker) because
program costs exceeded $250,000.

Audit Results. The allegation was not substantiated. DoD Regulation
5000.2-R, “Mandatory Procedures for Major Defense Acquisition Programs
(MDAPs) and Major Automated Information System (MAIS) Acquisition
Programs,” March 15, 1996, provided guidelines for determining if a Milestone
Decision Authority was required. A Milestone Decision Authority was required
if a program cost more than $120 million or total life-cycle costs exceeded
$360 million. Since the initial MAXIMO cost of $1.27 million was significantly
less than these costs, the oversight of a Milestone Decision Authority was not
required.

Allegation 7. The contractors developing MAXIMO seemed to be developing
requirements without an established plan.

Audit Results. The allegation was not substantiated. When the Marine Corps
purchased MAXIMO, it allowed each user to adapt MAXIMO to fit local needs
and uses. Thus, the Marine Corps was allowing changes to MAXIMO without
an established Marine Corps-wide plan prior to 2000. However, the Marine
Corps took over management of MAXIMO in 2000 and stopped the 16 Marine
Corps installations using MAXIMO from making modifications. Next, a


                                   6
program management plan was developed with the goal of standardizing the
configuration and functionality of the MAXIMO software and to establish
MAXIMO as the standard software for managing facilities maintenance. In
addition, the Marine Corps assigned a program manager and established a
configuration control board.

Allegation 8. Camp Lejeune improperly used operation and maintenance funds
to develop MAXIMO.

Audit Results. The allegation was not substantiated. The Marine Corps did
not develop MAXIMO. MAXIMO is a product of MRO Software,
Incorporated, and the Marine Corps initially purchased 510 licenses of
MAXIMO software. As previously stated in allegations 2 and 5, the Marine
Corps use of operation and maintenance funds for purchasing MAXIMO
licenses was appropriate and in accordance with DoD guidance.




                                  7
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Navy
Commandant of the Marine Corps
Naval Inspector General
Naval Audit Service

Unified Command
Commander in Chief, U.S. Atlantic Command

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member

Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy




                                           8
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense, prepared this report. Personnel of the Office
of the Inspector General of the Department of Defense who contributed to the report
are listed below.

Paul J. Granetto
Richard B. Bird
Kathryn M. Truex
Dennis L. Conway
Stanley J. Arceneaux
Marcia L. Ukleya
David P. Yarrington
